<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2004</title>
<body><pre>[Joint House and Senate Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2004 

                              ----------                              

                                           Thursday, March 6, 2003.

                         BUREAU OF RECLAMATION

                               WITNESSES

GALE A. NORTON, SECRETARY, DEPARTMENT OF THE INTERIOR
JOHN W. KEYS, III, COMMISSIONER, U.S. BUREAU OF RECLAMATION

                      Mr. Hobson's Opening Remarks

    Mr. Hobson. The hearing will come to order.
    This morning we are pleased to have with us the Secretary 
of the Interior, the Honorable Gale Norton. She is accompanied 
by the Honorable John Keys, Commissioner of the Bureau of 
Reclamation, and Mr. Ron Johnston. And we would like to welcome 
the staff you have brought with you. It is good to see you 
again. Thanks for all the things you have done for my district. 
In the park at Wright Patterson, we are celebrating the Wright 
Brothers. That is where they really learned to fly an airplane. 
I don't know if there is anybody here from North Carolina or 
not.
    Madam Secretary and Mr. Keys, as you know, I am new to the 
subcommittee and, as you know, I am from Ohio. So I am not 
really familiar with all of the things that I need to be, or 
understand the programs of the Bureau of Reclamation. But I 
think with your help and the help of the more experienced 
colleagues that are on this committee and the staff, we will be 
able to, I think, develop a very good relationship among all of 
us.
    As a start, I had a very informative meeting with the 
Commissioner in my office last week. I also hope to be able to 
travel to the West to see the challenges you face firsthand. I 
look forward to working with you this year as we move through 
the appropriations process. The President's budget request has 
presented great challenges to this panel and we are going to 
need your help if we are to have a successful year.
    Let me say one other thing, and I am going to probably say 
this in most of the hearings, and the members will probably get 
tired of this before it is over. But the way I tend to look at 
projects is, one, whether we can do them; two, whether they are 
needed; and, more importantly, would I spend this money if I 
were running a business and it was my money that was coming out 
of my pocket. Would I want to do this project and would the 
people and the taxpayers benefit from it if we do it? And so 
you will find me looking at things maybe a little differently. 
I am a small businessman by background. I am still in business, 
and it drives me nuts at some of the things I see when we deal with 
taxpayers' dollars.
    At this point I would like to recognize my Ranking Member, 
Mr. Visclosky, for any opening remarks he would like to make.
    Mr. Visclosky. No opening statement. Thank you, Mr. 
Chairman.
    Mr. Hobson. Okay. Madam Secretary, the Chair recognizes 
you. We will place your prepared remarks in the record, and you 
may summarize as you wish.
    Just so you understand how we will do this, we will go 5 
minutes to each of the members, and do a round. I don't know 
what your time is, but I have a meeting at 11:30 with the big 
Chairman, and I think I ought to show up for that at some 
point. So if we are still going, I will probably let Mr. Wamp 
run the meeting, as long as he doesn't get out of hand, and I 
am sure he won't.
    So with that, we will allow you to move forward and make 
any comments that you would like.

                   Secretary Norton's Opening Remarks

    Secretary Norton. Thank you very much, Mr. Chairman and 
members of the committee. I am very pleased to be here today to 
describe our budget proposal for fiscal year 2004. I want to 
say I had a wonderful visit to Wright Patterson and to Dayton 
to see some of our facilities and the Air Force facilities. I 
am really looking forward to our Wright Brothers centennial 
celebration this year.
    Mr. Hobson. Thank you for coming.
    Secretary Norton. There are some great things underway. I 
am very pleased to see that you are making plans to come see 
some of our facilities for the Bureau of Reclamation. We 
welcome that and look forward to having a chance to show you 
around.
    As you mentioned, I am joined today by Commissioner Keys. I 
also would like to introduce John Trezise, who is the 
Departmet's Budget Director. Ron Johnston of the Central Utah 
Project is here in the audience with us today.
    The Department of the Interior's responsibilities lie at 
the confluence of people, land, and water. Our programs touch 
the lives of individuals across the Nation. How well we fulfill 
our mission influences whether farmers will have water and 
people can turn on the tap; whether our children will enjoy 
America's grand vistas, places, and history; and whether future 
generations can hike, bird watch, canoe, or hunt and fish in 
the great American outdoors.


                            budget overview


    The 2004 budget request lays the foundation for us to build 
a legacy of healthy lands and thriving communities. Our 2004 
budget request is $10.7 billion. This is the largest 
Presidential request in the Department's history, sustaining a 
25 percent increase over the 2000 budget.
    The Department anticipates that on the receipts side, it 
will collect $7.8 billion in revenue in 2004, equivalent to 73 
percent of our appropriations request.

    Our 2004 request for the programs that are covered by this 
subcommittee amount to $916.2 million. This includes $878 
million for the Bureau of Reclamation and $38 million for the 
Central Utah Project Completion Act.
    Through its water infrastructure, the Department provides 
drinking water to 31 million people and irrigates lands that 
provides 60 percent of the Nation's fruits and vegetables. 
Reclamation is the largest supplier and manager of water in the 
17 Western States and is also the Nation's second largest 
producer of hydroelectric power.
    With the responsibility to continue to meet western water 
needs, we need to find ways to manage water carefully and 
creatively for people, land, and the environment. This year, we 
face some tremendous challenges with the drought that is 
affecting much of the Western United States. We are still 
watching what develops to determine exactly how severe the 
drought is going to be, but the preliminary indications are 
very disturbing.
    I talked last week at the National Governors Association 
meeting and spoke independently with the Governors of Nebraska 
and Kansas. Both independently volunteered the observation that 
this appeared to be the driest year since the dust bowl. Kansas 
and Nebraska are only two of the many States that are affected, 
and other States are appearing to have even deeper levels of 
drought than those States. Lake Powell, for example, is 
currently nine stories below its high point. Across the West we 
are going to face tremendous challenges because of that.
    The budget requests include $11 million to launch a Bureau 
of Reclamation Water Initiative that uses collaboration, 
conservation, and innovation to make sure every drop of water 
counts. Our 2004 Water Initiative will benefit communities 
currently struggling with increased water demands, drought, and 
compliance with the Endangered Species Act. This initiative 
will help us to reduce the conflicts over water, meet important 
water needs for people and for the environment, and improve our 
ability to integrate our activities with State, local, and 
private partners.
    With investments in water conservation, science, and 
technology, and modernization of existing facilities, we will 
manage water more wisely. The kinds of activities that this 
funding will support include overall looking at ways to enhance 
our overall use of water and to use it more wisely. We will 
examine, for example, allowing others to use excess storage 
capacity so that water is available to local communities when 
they need it. We will examine the improvements that can come 
from updating irrigation practices. In many parts of the 
country, the irrigation practices are the same as they were 200 
years ago. By lining canals, and by using more sensitive 
headgates and other monitoring approaches, we can reduce water 
losses. We want to increase research on desalinization to bring 
down the long-term costs so that we can convert salt water to 
fresh water and have that provide additional water capacity, 
both on the oceanfront and across the country. We also believe 
it is important to strengthen the understanding of the 
Endangered Species Act within the Bureau of Reclamation, and 
that is a part of this initiative as well. Overall, the water 
initiative will allow us to address long-term needs and lay the 
foundation for addressing the increasing water needs for the 
country.
    In addition to our Water Initiative, the Reclamation budget 
puts an emphasis on resolving water management and delivery 
issues that involve endangered species in several Western 
States. This includes nearly $21 million for the Klamath 
Project where Reclamation will improve water supply and water 
quality. To improve water supply, we will establish a water 
bank and evaluate opportunities to increase storage in the 
basin. Water banking is an important tool in addressing both 
temporary and permanent transfers of water to protect 
resources, while supporting local water needs and preserving 
the economic base of communities. In establishing the water 
bank, Reclamation will work with local water users and private 
landowners to provide water for fish and to protect existing 
water uses in the basin through a market-based approach.

                       SPECIFIC PROJECT PROPOSALS

    Now let me run through some of the specific project 
proposals. Reclamation's budget includes $19 million for the 
Columbia/Snake salmon recovery project, and $17 million for the 
Middle Rio Grande project, to work collaboratively with other 
stakeholders to manage water while promoting endangered species 
recovery.
    The budget includes $15 million in an account established 
exclusively for implementation of the preferred program 
alternative for the CALFED Bay-Delta Program.
    The budget request includes $58 million to continue 
construction of the Animas La Plata Project. This is the level 
of funding that is needed to meet the construction schedule 
contained in the Colorado Ute Settlement Act Amendment of 2000.
    The 2004 budget request includes $34 million for payment to 
the plaintiffs in the settlement of the Sumner Peck Ranch 
litigation. Just yesterday, we learned that the Department of 
Justice has concluded that it is appropriate to pay the $34 
million annual payment for 2003, plus the $5 million upfront 
payment from the Judgment Fund.
    Lastly, let me discuss the budget request for rural water 
projects. Our budget includes $32 million for these projects. 
This is significantly reduced from the level Congress recently 
enacted for 2003. The 2004 request reflects the findings of the 
OMB program assessment rating tool process. The assessment 
evaluated the program in its entirety and did not evaluate 
individual projects funded in this program. The program 
assessment rating tool process concluded that a new approach is 
needed for the program. We intend to submit legislation this 
spring establishing a Reclamation Rural Water program with 
adequate cost controls and clear guidelines for project 
development.
    The 2004 budget for the Central Utah Project Completion Act 
is $38.2 million, an increase of $2.2 million over $2003. This 
focuses on redesign and realignment of the Diamond Fork Tunnel.

                  OVERALL DEPARTMENT BUDGET PRIORITIES

    I would like to quickly run through a few of the other 
budget priorities for the Department overall to help you put in 
context our requests for the Bureau of Reclamation in this area 
as compared to the rest of the Department. Homeland security is 
obviously an important concern for us as well as for everyone 
else in the Federal Government, and security at our dams is one 
aspect of our improvements in homeland security.

                        TRUST REFORM INITIATIVES

    The largest portion of the increase in our budget is for 
trust programs. In the Department's budget overall, we provide 
an increase of $183 million for trust programs and this is an 
increase of nearly 50 percent over last year. This is necessary 
because of the need to do an historical accounting of Indian 
trust fund management. There is a dispute in litigation about 
whether the Federal Government owes billions of dollars or 
whether our accounting was far less flawed. That dispute can 
largely be resolved only by going through an accounting 
process. We have laid out to the court a proposal for how we 
can do that. That is, overall, about $350 million in accounting 
over the course of several years. We anticipate going forward 
with that.
    Mr. Hobson. For the accounting?
    Secretary Norton. Yes. It is basically to go back and 
reconcile our bank statement.
    Mr. Hobson. $350 million?
    Secretary Norton. That is correct. This would have us going 
through the major transactions one by one, plus doing 
statistical sampling of the lower value transactions. This is 
down from the estimate of $2.4 billion to do a transaction by 
transaction accounting of all of those accounts.
    Mr. Hobson. I would like to have some discussion at some 
time about what that is.
    Secretary Norton. All right.
    Mr. Hobson. Not now.
    Secretary Norton. All right. I would be happy to talk with 
you further.

                  COOPERATIVE CONSERVATION INITIATIVE

    We also have put forward a Cooperative Conservation 
Initiative. This allows us to lay the foundation for healthy 
lands. It presents a blueprint for fulfilling the President's 
vision of a new environmentalism of citizen-stewards and 
cooperative conservation. This program will tap into the 
tremendous potential that resides in conservation partnerships. 
It will better enable our land managers to join with Americans 
across the Nation in caring for the land.
    Thousands of landowners and organizations remain on waiting 
lists to participate in our Cooperative Conservation Grant 
Programs. The 2004 budget includes $113 million for the 
Cooperative Conservation Initiative. It includes, for example, 
an increase of $9.3 million for the Partners for Fish and 
Wildlife program. This will allow us to partner with 2,500 
landowners to restore wetlands, uplands, riparian habitats, and 
many other areas through voluntary, cooperative agreements. 
These programs, I am realizing, are very relevant to the 
programs that this subcommittee addresses as well. As we can 
resolve environmental problems in specific watersheds by 
working with the people in those communities, we can help stretch 
the water that is available through our  Reclamation projects. We 
believe that this type of cooperative conservation approach can 
help us in addressing water needs as well as other environmental 
issues for the long term.

                     OTHER DEPARTMENTAL INITIATIVES

    Our programs are also interrelated in other ways. Our Fish 
and Wildlife Service Program for fish hatcheries is being 
increased this year. Our Healthy Forest Initiative protects 
watersheds. It, for example, will involve the removal of salt 
cedar in some areas. Salt Cedar is a plant that absorbs 
tremendous amounts of water from riverfronts in arid areas. Our 
programs can have impacts in ways that we might not usually 
think by allowing these programs to work together. We are 
trying to do more analysis and cooperation to be sure that we 
are using our programs in a coordinated way to address our 
needs.
    I would like to thank you for the opportunity to be here 
today and to discuss our budget. We are working to manage 
better through partnerships. Our ability to leave a legacy of 
healthy lands and thriving communities depends on how well we 
all work together. Our 2004 budget sets forth the tools through 
which partnerships can flourish. Thank you.
    [The prepared statement of Secretary Norton follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Commissioner Keys' Opening Remarks

    Mr. Keys. Mr. Chairman, it is my absolute pleasure to be 
here with you today to talk about the Bureau of Reclamation 
2004 budget request for what we are trying to do in the Western 
United States. I have with me today Bob Wolf, who is our 
Director of Program and Budget for Reclamation, to help me 
answer any questions you may have.
    We certainly appreciate the support the subcommittee has 
given us in the past and we certainly look forward to working 
with you in the future. Your staffs are first class and we have 
had an excellent relationship in working with them, and we 
would certainly work to keep that underway.
    Mr. Chairman, this year we are celebrating the centennial 
year for the Bureau of Reclamation. We were established in 1902 
on June 17 by an act signed by President Roosevelt, and we are 
proud of what Reclamation does in the Western United States. 
Currently, we are the largest wholesaler of water in the United 
States, the seventh largest power utility, and we serve water 
daily to about 31 million people in the Western United States, 
and annually we serve about 10 million acres with irrigation 
water. Overall, we have 348 major dams and 58 power plants in 
the 17 Western States.
    Mr. Chairman, the overall Bureau of Reclamation request is 
$878 million in current authority, and from our perspective, 
this budget is good news for the Western United States. The 
request is citizen centered and founded on the President's 
principle of results rather than procedures.
    An example is the Western Water Initiative request that the 
Secretary talked about earlier. Our budget is fiscally 
responsible. We will continue to provide funding to deliver 
water, provide a stable source of power for our growing 
population, keep our dams and facilities safe, and support 
sound environmental stewardship efforts all across those 17 
Western States.
    The Fiscal Year 2004 Request for Water and Related 
Resources is $771 million. This will allow us to continue 
Reclamation's emphasis on delivering and managing water and 
power, two valuable public resources that we are responsible 
for managing.
    In cooperation and consultation with the States, tribal, 
and local governments, along with other stakeholders and the 
public at large, Reclamation offers workable solutions 
regarding water and power resource issues that are consistent 
with the demands for water and power over the West. With the 
need to pursue cost-effective, environmentally sound approaches 
to meeting these demands, the request continues to emphasize 
the operation and maintenance of Reclamation facilities in a 
safe, efficient, economic, and reliable manner. This is all 
done while sustaining the health and integrity of ecosystems 
that address the water needs of a growing population.

                     HIGHLIGHTS OF THE 2004 PROGRAM

    Several highlights of the 2004 program, and these are not 
in any specific order:
    The Secretary mentioned the Animas La Plata funding. The 
funds that are requested will continue with the construction of
Ridges Basin Dam and the Durango pumping plant that we are well 
into construction on now. It will also allow us to do the 
preconstruction work on the Navajo Nation municipal pipeline.
    The work in the Klamath Basin that was mentioned before has 
a very unique feature that we are working mightily on this 
year, and that is creating a water bank that would set water 
aside from fallowed land on a willing seller/willing buyer 
basis, that would set this water aside to help meet the 
Endangered Species Act requirements of the project and, at the 
same time, allow the water supply of the basin to be managed 
for irrigation delivery. We think it has great promise and a 
lot of the monies that you see there are directed toward making 
that happen.
    The safety of Reclamation dams is one of our highest 
priorities. About 50 percent of Reclamation's dams were built 
between 1900 and 1950. Ninety percent of these dams were built 
before the advent of current state-of-the-art foundation 
treatment and before filter techniques were incorporated in 
embankment dams to control seepage. That is the primary focus 
of our Safety of Dams Program in making them safe and reliable 
for years to come, centuries to come, in most cases. We have 
about $71 million in our budget for that.
    Our site security activities are ongoing and funding 
program improvements are also ongoing, identified in 2002 and 
2003. Since September 11, 2001, Reclamation has maintained 
heightened security at all of those facilities to protect the 
public, our employees, and the infrastructure. Our budget 
request is about $28.5 million for that.
    The desalinization of seawater and groundwater poses a 
promising opportunity to expand water supplies for both coastal 
and inland areas in the Western United States. The 2004 budget 
contains increased funding for desalinization research 
activities aimed at decreasing the cost and facilitating local 
implementation of desalinization. We believe that cost-shared 
research conducted at existing institutions is the quickest and 
most economical means to achieve our ambitious, long-term goal 
of decreasing desalinization costs by 50 percent by the year 
2020. Without continued investments in desalinization research, 
the future expansion of the Nation's water supplies could be 
jeopardized.
    Mr. Chairman, the Secretary talked about our Western Water 
Initiative that we are trying to get started. We are excited 
about that because it brings focus on those areas that we see 
the greatest promise for dealing with the challenging water 
resource management issues that we anticipate in the next 25 
years.
    Mr. Chairman, we have a lot of details in our proposals. We 
certainly would try to cover some of those details with you 
today if you would like, and would certainly stand to any 
questions that you may have.
    Mr. Hobson. Thank you for the summary. Rodney was worried 
you were going to read the whole thing and he was getting a 
little nervous.
    Mr. Frelinghuysen. I was.
    [The prepared statement of Commissioner Keys follows:]


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Mr. Hobson. At this point, we'll put the budget 
justification material for the Central Utah Project and the 
Bureau of Reclamation in the record, without objection.
    [The information follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Mr. Hobson. We will, as I said before, use the 5-minute 
rule and go by order of people who arrived first.
    Mr. Edwards.

                      Mr. Edwards' Opening Remarks

    Mr. Edwards. Thank you, Mr. Chairman.
    The first question, Mr. Chairman, is actually to you. Mr. 
Pastor wanted to know if the Wright Brothers explained why they 
left Ohio.
    Mr. Hobson. They came back. In North Carolina they didn't 
want to learn to fly the airplane, they just wanted to see if 
they could take off in the heavy winds.
    Mr. Edwards. Commissioner, Madam Secretary, thank you for 
being here and for the important work you do.

                              DESALINATION

    Let me just ask a question about desalinization. Are there 
many lakes throughout the Western U.S., or the entire U.S., 
where the water simply isn't drinkable because of the salinity? 
I have a lake in my district in central Texas that is like 
that, and we are interested in learning more about what the 
possibilities are for desalinization. Is that a major potential 
new water source, without having to build new dams, or are 
there just a small number of lakes like that?
    Secretary Norton. We, of course, have many different 
situations. I would say the more likely possibility for major 
water sources is from groundwater. In terms of the lakes that 
tend to be heavily saline, those, for example, are too saline 
to be easily processed, and so the cost is higher the more 
salinity that is already in the water.
    Mr. Edwards. Right.
    Mr. Keys. Mr. Chairman, what we are hoping to do is to 
refine the technology so that whatever the saline source is, we 
can treat it. Currently the cost of treating saline water or 
seawater is about $650 an acre-foot. Economic studies show that 
if we can get that cost below $600, it is competitive in some 
of those high-cost water markets. Certainly our program will 
focus on seawater and the brackish groundwater. But getting the 
cost of that technology down, the filter technology that is 
associated with reverse osmosis, if we can get that cost down, 
you might say the sky is the limit on where you go and try to 
find sources to treat.
    Mr. Edwards. You have $775,000 in direct line item funding 
for that type of research, but I assume you also have some 
research built into your other projects. Did you give, 
Commissioner, the total number for desalinization research or 
efforts in the budget? You took all different sources?
    Secretary Norton. While he is looking for that, I also note 
that many other departments are doing research, and we would 
like to work with them to coordinate that research. The 
military does desalinization for the Navy ships. It is 
something that is being looked at for international use, and so 
there are a number of other departments working on that.

    Mr. Hobson. Are you a partner in the Long Beach 
Desalinization Program? Because there is a claim there that 
they have got it to $600 or under. Are you involved in that?
    Mr. Keys. Mr. Chairman, we are working very closely with 
Long Beach and they have a new filter technology that they are 
investigating. Their cost is under $600 right now because of 
the subsidy that the Metropolitan Water District puts toward 
any water that is developed from desalinization. We are still 
trying to get the overall cost of it down below $600.
    Mr. Edwards. Great. That addresses it. I will follow up 
with written questions and perhaps some meetings. I would like 
to learn a little bit more about the whole issue.
    Mr. Chairman, thank you.
    Mr. Hobson. Mr. Berry.

                      Mr. Berry's Opening Remarks

    Mr. Berry. Thank you, Mr. Chairman.
    Madam Secretary, I appreciate you being here today. I have 
got just a whole list of questions. But rather than go into 
those here today, I have repeatedly asked your office for a 
meeting with you and some of your folks at the Department of 
the Interior, but I have just not been able to achieve that. I 
think it would probably save everyone time if you and I could 
just sit down and talk about some of these things.
    I have any number of Department of the Interior facilities 
in the district that I am fortunate to represent, and it is 
generally considered a curse, and that the worst thing that 
could happen to your community is for the Department of the 
Interior to establish something there.
    I would just really like to have the opportunity to sit 
down and talk to you about the problems that we have, not only 
from just abusing our local citizens, but to the Park Service 
denying safe, clean, drinking water to communities because they 
just do not want those communities to be close to their park. 
That is the sort of thing that we have to deal with. We have 
people, a whole county, 8,000 people, drinking radon-
contaminated water because the National Park Service wants to 
run them out of there.
    So that is the kind of issue I would love to have the 
opportunity to discuss with you at your convenience. Thank you.
    Secretary Norton. I apologize. I just became aware that we 
did not reply to your most recent letter, so we will be in 
contact with you to arrange something.

    Mr. Hobson. Mr. Visclosky.

                    Mr. Visclosky's Opening Remarks

    Mr. Visclosky. Thank you, Mr. Chairman.

                  NORTHWEST AREA WATER SUPPLY PROJECT

    Commissioner Keys, I wrote to you about the Northwest Area 
Water Supply Project on January 23, and you were kind enough to 
respond on March 5th about the corrosion protection standards 
of the pipe that is going to be used on phase 1 of that 
project.
    Mr. Keys. Yes.
    [The information follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Mr. Visclosky. In your response--and it was a good 
assumption on your part, since I am from Gary, Indiana--the 
first two substantive paragraphs of the response talked about 
the use of ductile iron or steel pipe, and I appreciate that. 
But in the letter I wrote, I never mentioned the type of pipe--
and I reread the letter during the hearing here--but did ask a 
series of eight questions, almost all of which pertain to the 
issue of corrosion protection and the amount that is called 
for.
    In your letter of March 5 you did state in the fourth 
paragraph that ``Regarding the matter of corrosion protection 
and service life, the Northwest Area Water Supply 
specifications meet or exceed the industry standard.''
    That was not my question. My question was, what about your 
standards? Because the pipe, as I understand it, that is going 
to be used is 36 or 30 inches in diameter.
    Mr. Keys. Mr. Chairman and Mr. Visclosky, before those 
specifications were issued, we approved those specifications, 
so the specs do meet our Reclamation requirements for corrosion 
protection.
    Mr. Visclosky. They meet your requirement. Do they meet 
your standard as published? I know they meet the industry 
standard, I know they meet your standard for this project. Do 
they meet your written criteria as far as the Bureau of 
Reclamation standards for pipe of 25 inches or more in 
diameter?
    Mr. Keys. Mr. Chairman and Mr. Visclosky, everything that I 
have found in that thing says yes.
    Mr. Visclosky. My understanding is that if pipe of 24 
inches or more is used, your standard for the Bureau of 
Reclamation specifies that it has to be--and excuse my 
pronunciation--cathodically protected and coated with a bonded 
coating. Is that correct or not?
    Mr. Keys. Mr. Chairman and Mr. Visclosky, there are several 
ways to do it.
    Mr. Visclosky. I didn't ask that. Is the United States 
Bureau of Reclamation standard, as published, to have that type 
of bonding and corrosion protection?
    Mr. Keys. Mr. Chairman and Mr. Visclosky, my understanding 
is that everything we did met our own standards.
    Mr. Visclosky. I didn't ask you that.
    Mr. Keys. I will get back with you on a more detailed 
answer to that. I did not understand the way you asked the 
question that--of what you are asking now, so we would 
certainly get back with you again.
    Mr. Visclosky. The question I asked on January 23rd was, 
what is the United States Bureau of Reclamation standard for 
corrosion protection, and what methods of protection are called 
for in your standards, recognizing that in your response in 
both writing and here today that you met industry standards and 
the standards for this project.
    The question I would have is, if you have a published 
standard and it was not followed, why have the standard in the 
first place? Secondly, what is the justification for a 
deviation from a published standard and, furthermore, since 
this is only phase 1 of this program, is there going to be a 
deviation, and why, from the standard as far as the bidding 
process in the future? My questions did not relate specifically 
to the type of pipe used.

    Mr. Keys. Mr. Chairman and Mr. Visclosky, I understood that 
our standards were followed in all of the specifications for 
the NAWS pipeline. I will go back and check and be sure that 
that is correct. My understanding is still that, but I will 
check further for you.
    Mr. Visclosky. My understanding is that the bidder whose 
bid was accepted is going to use a nonbonded baggie to cover 
the pipe and that this is outside of the United States Bureau 
of Reclamation standard for pipe over 24 inches in diameter.
    Mr. Keys. Mr. Chairman and Mr. Visclosky, our understanding 
is that that cathodic protection met our standards and was 
adequate for long-term protection. I will certainly ask again 
and we will get back with you.
    Mr. Visclosky. If you could. And in the response, you 
indicated that the Government of the Province of Manitoba had 
filed suit on this matter--not on the specific question I am 
asking, but on the project--on October 22nd, and that you have 
to be somewhat judicious in your formal correspondence. But 
given the fact that there is a lawsuit pending on this, I asked 
a series of eight very specific questions and do not feel that 
the responses were adequate.
    Mr. Keys. Mr. Chairman, Mr. Visclosky, we will do better 
next time.

                             SITE SECURITY

    Mr. Visclosky. Commissioner, the Bureau of Reclamation's 
budget includes $29 million for security on 362 high and 
significant hazard dams that you operate. Does this budget 
request fulfill all of your security needs at these sites?
    Mr. Keys. Mr. Chairman and Mr. Visclosky, all of our dams 
are secure at this time. After September 11, 2001, we initiated 
a review of the security facilities and coverage at all of our 
facilities. The entire review for all 362 will be completed by 
the end of 2004. We are currently completing those on the top 
55 of those facilities and are in the process of implementing 
the hardware changes that have to be made at each facility. The 
monies that we have had in the past have been adequate for us 
to provide the security coverage there, the law enforcement 
coverage.
    We are, as we speak, putting together the changes 
physically that need to be made, the barriers, the closed 
circuit televisions, whatever it takes. Our monies are adequate 
to complete those reviews. We are now evaluating and 
prioritizing the on-the-ground fixes that have to be made.
    Mr. Visclosky. Okay. So after 2004, the reviews will be 
completed, but all of the security equipment upgrades would not 
necessarily be completed?
    Mr. Keys. That is correct.
    Mr. Visclosky. At this budget level.
    Mr. Keys. At this level we are working to see what needs to 
be done and as we find out what needs to be done, then we will 
program for those monies.
    Mr. Visclosky. Could you for the record provide the 
subcommittee with a list of the requirements that have been 
identified to date--understanding you may have additional items 
identified subsequently--but are not funded subsequent to the 
04 budget, if you could?
    Mr. Keys. Mr. Chairman and Mr. Visclosky, I am not sure 
about the security status of that information. What we would 
probably prefer to do is offer you a briefing in a secure 
situation so we could go through those requirements with you.
    Mr. Visclosky. Could you provide a classified list to the 
committee staff?
    Mr. Keys. Yes, sir, we could do that.
    Mr. Visclosky. If you could do that, that would be 
preferable.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Hobson. Mr. Frelinghuysen. But before that, could you 
tell us what the pin is that you are wearing?
    Mr. Keys. This is our centennial pin.
    Mr. Hobson. It looked to me like a turtle and I was worried 
that it was some sort of endangered species.
    Mr. Frelinghuysen. The motto is ``make haste slowly.''
    Mr. Keys. Mr. Chairman, actually--the pin appearing to be a 
turtle is a good one, because a turtle doesn't make progress 
until he sticks his neck out.
    Mr. Hobson. Very good response. That was good.
    Mr. Frelinghuysen. Is that subtracted from my time?
    Mr. Hobson. No.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.

                  Mr. Frelinghuysen's Opening Remarks

    Secretary Norton, it is a pleasure to be with you once 
again. I am taking a page out of Mr. Hobson's initial remarks. 
I would like to invite you to New Jersey to my congressional 
district. This hearing traditionally, historically, is focused 
on western issues, but in reality, your Department throws its 
arms around a lot of things that are very important to people 
in the Northeast, as they are to the West. We have never viewed 
you, if you will pardon the expression, as a curse; we regard 
you in our part of the world as an ally as we try to protect a 
lot of natural assets.
    I have in my congressional district the oldest national 
historic park in the Nation and there is a lot that goes on in 
the New York/New Jersey/Pennsylvania region where your 
Department has been absolutely a tremendous ally. A lot of 
great professional people. I am sort of buttering you up in a 
sense because, having talked with you, I would definitely like 
to have you come and see the good things that your people have 
been involved in.

                          NEW JERSEY HIGHLANDS

    One of those has been a study which you and Secretary 
Veneman have done in the Department of Agriculture under the 
direction of the U.S. Forest Service, that I have been very 
much involved in. This is an update of a 1993 study of what is 
called the New Jersey highlands. But, in reality, it goes from 
the Delaware River, which would include Pennsylvania, through 
New Jersey, through New York State into Connecticut. These are 
parts of the country where, speaking on behalf of my own State, 
we have a huge density of population and a lot of what we love 
and hold dear in terms of open space and farmland is rapidly 
disappearing.
    This update of the 1993 study which your Department has 
actively been involved in has been completed and released. What 
we are waiting for are some recommendations from you and 
Secretary Veneman as to ways that we can work together. This is 
not the case that sometimes westerners see as sort of a land 
grab of the United States Government, as I have shared with 
you. In our area, we have willing sellers. We have communities 
that are keenly interested in preserving open space, and they 
have stepped up to the plate with their own financial resources 
and a lot of private groups have done it.
    So not only would I like to get you there, I would like to 
ask that when you work on your recommendations with Secretary 
Veneman that you consider our desire to protect more of that 
land, and hopefully, to be in a position to purchase it.
    Secretary Norton. Thank you. I do look forward to working 
with you on that. We have really focused on exactly the kind of 
project that you are talking about in developing our 
Cooperative Conservation Initiatives. We really applaud the 
locally driven approaches to address the conservation needs 
that local communities see. I think that many of the proposals 
that we have, and our existing programs, would be well suited 
to be parts of the mosaic of protections that would fit a very 
diverse area, as the highlands are.
    Mr. Frelinghuysen. And when we talk about water resource 
management in the East, while people tend to have forgotten it, 
we have had huge drought issues and water is our most valuable 
commodity. And a lot of what I am talking about represents 
watersheds and a variety of buried aquifers, and I think to the 
degree that your good people can work with people in New Jersey 
in our municipalities, we can do better to protect it. Thank 
you very much.
    Thank you, Mr. Chairman.
    Secretary Norton. Thank you.
    Mr. Hobson. Mr. Simpson.

                     Mr. Simpson's Opening Remarks

    Mr. Simpson. Thank you, Mr. Chairman.
    Madam Secretary, I appreciate you being here today. It is 
always good to see you again. Commissioner, it is good to see 
you again. I want to tell you that I think the Department is 
doing a great job out in Idaho, and we enjoy working with you. 
And I guess some of the people from Arkansas ought to come out 
and see the job they are doing in Idaho.
    Mr. Berry. We can swap with you.

              TRUST RESPONSIBILITIES WITH NATIVE AMERICANS

    Mr. Simpson. While it isn't under the direct jurisdiction 
of this committee, I did appreciate your comments addressing 
the trust responsibilities that we have with the Native 
Americans. I know the Chairman is concerned about the cost, as 
we all are, but the potential costs are enormous, as you know.

    I see that your budget, as it looks to me in the budget 
book, and I am still trying to understand these, it says that 
the request for the payment in lieu of taxes is $50 million, 
but in your comments you say that there is $200 million in the 
President's request.
    Secretary Norton. It is $200 million. I am not sure exactly 
what it is that you are looking at.
    Mr. Simpson. This book.
    Secretary Norton. But it used to be that Payment in Lieu of 
Taxes, PILT, was funded entirely in the Bureau of Land 
Management. We have now moved PILT into the departmental budget 
because it really applies to the Forest Service and Park 
Service and so forth, as well as BLM, so it may be some of that 
movement to the departmental budget that is showing up there.

                            KLAMATH PROJECT

    Mr. Simpson. Okay. Commissioner, do you have any sense of 
what is going to happen in the Klamath Basin this year? I 
noticed that you talked about creating a water bank to try to 
address some of these problems on a willing-seller basis. My 
guess is that if what happened in 2001 happens in 2003, we are 
going to have a lot of willing sellers, just no water to bank. 
How is this going to work?
    Mr. Keys. Mr. Chairman and Mr. Simpson, it is going to be a 
tight water year there. As I think the Secretary said, our 
forecast right now shows that expected runoff in the basin is 
somewhere between 40 and 45 percent at this time.
    What we are trying to do with the water bank is for those 
people that are willing to idle their land this year and make 
that water available, is to set it aside and meet the 
endangered species requirements from that water bank. The rest 
of the water that is in storage and that runs off would then be 
available for use by the irrigators. It does not mean a full 
supply. There were shortages in the basin in 1992 and 1994, and 
if the current situation continues, there will be shortages 
there even as they operate that separate water supply this 
year. I have no idea what those shortages would be.
    The plan that we have put together, I think, gives us as 
good a chance as anything that we can think of to have a water 
supply this year without the 2001 conditions.

                               IRRIGATION

    Mr. Simpson. On the Western Water Initiative, one of the 
goals in there is to improve irrigation techniques. I 
understand that a general number is that if you deliver water 
by a canal, generally half the water is used up and getting to 
the field. Is that about accurate?
    Mr. Keys. In some cases it is, where they have not taken 
specific actions to line the canals, to operate them so that 
they can minimize seepage. We have a number of programs that we 
have worked with over the years where we have encouraged people 
to line the canals, put in better operating facilities, put in 
SCADA systems; SCADA is a Supervisory Control and Data 
Acquisition Device that allows you to operate off site; better 
monitoring and measuring equipment and so forth.

    The initiative would try to bring more focus into that, 
pick some pilot projects out, and show some folks how some 
extra money put in there could stretch their existing water 
supply. Your figure on 50 percent depends on the facility. In 
Idaho you have most of canals and laterals not all of them, but 
a good share of them, already lined and probably do not lose 
that much water. Other facilities that are not lined could lose 
that much and sometimes even more water.
    Mr. Simpson. Well, would any of these funds be available 
for some grant programs to pressurize and deliver water? I know 
that for the Oakley Canal, they are talking about doing that, 
because they lose about 50 percent of their water.
    Mr. Keys. Well, Oakley Canal is not a Reclamation facility. 
Those, we would hope to encourage them to work with the 
Department of Agriculture who has several programs available to 
do that.
    Mr. Simpson. You do have some that may request this type of 
thing.
    Mr. Keys. For Reclamation facilities, that is correct.

                  COLUMBIA/SNAKE RIVER SALMON RECOVERY

    Mr. Simpson. We have in this budget about $19 million for 
salmon recovery in the Columbia/Snake River. Any idea on what 
the estimate of total cost on that is going to be?
    Mr. Keys. Mr. Chairman and Mr. Simpson, the $19 million is 
for Reclamation to participate in meeting our part of the 
requirements under the Biological Opinions that were signed in 
2000 and 2002. I have no idea what the total cost of the salmon 
recovery by the United States Government is in the basin.
    Mr. Simpson. Well, we are spending hundreds of millions of 
dollars on it every year.

                      LOAN PROGRAM ADMINISTRATION

    I would suggest that in your comments that you might want 
to change just one thing, and this is just a recommendation, 
because somebody is going to look at it and do what I did. And 
that is, under the loan program, you said no funds are 
requested for the loan program; but $200,000 are requested for 
the administration of it. Somebody is going to look at that and 
say, ``Oh, typical government program.'' I assume that is for 
grants that are already out there, loans that are already out 
there.
    Mr. Keys. Mr. Chairman and Mr. Simpson, that is absolutely 
right.
    Mr. Simpson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hobson. Mr. Pastor.

                      Mr. Pastor's Opening Remarks

    Mr. Pastor. Thank you, Mr. Chairman. Good morning, Madam 
Secretary and Commissioner. Good seeing you again.

                      SECURITY COSTS AT HOOVER DAM

    Last year one of the areas I was interested in was the 
security costs, and we talked about Hoover Dam, the visitors 
center. Since 9/11, how much money, ballpark figure, has been 
spent, just on the security of our Federal facilities by the 
Bureau of Reclamation?
    Mr. Keys. Mr. Chairman and Mr. Pastor, since 2001, 
September 11, 2001, our 2002 budget for that was about $30 
million; Our 2003 figure is $26 million; and our 2004 request 
is for $28 million. Those are monies that are being spent on 
the security reviews of all of the facilities; the hiring and 
providing of security and law enforcement people at the dams. 
So in 2002, 2003, and 2004, that is about $84 million.
    Mr. Pastor. And the question, or the response, is that 
after the 2004 review, we will talk about upgrades not 
completed at the ground level. I heard that comment. Do you 
have any estimate, more or less, of what that might be?
    Mr. Keys. Mr. Chairman and Mr. Pastor, we do not. We are 
looking at all of those facilities. Some of the more critical 
infrastructures will need more attention. Some of them that are 
out on the plains that do not have water against them during 
most of the year would require less. But we do not have a good 
estimate of the total cost right now.
    Mr. Pastor. It is my understanding that the Bureau has 
determined that these increased security costs shall be 
appropriated and be nonreimbursable.
    Mr. Keys. Mr. Chairman and Mr. Pastor, what we are trying 
to do is to address the terrorism and security activities 
associated with the heightened level of attention, and get it 
in place without undue burden on our water users and on our 
power users.
    At some time we will have to reevaluate that 
nonreimbursable status, and the users will then have to step up 
their contributions. The water users and power users now are 
continuing to pay the security costs that they were paying 
before.
    Mr. Pastor. Right.
    Mr. Keys. We are trying to take care of the extra security 
requirements, and then we will step that up at some point in 
the future.
    Mr. Pastor. I think that was the issue, when you determine 
it is nonreimbursable. Because, as I remember, our conversation 
last year was about Hoover Dam--the visitors' center, the 
construction overrun, the additional cost, the cost of the new 
security, and the decrease in visitors. Because for a while it 
was completely closed and now I guess there is a secured tour, 
and some of the users were concerned that the cost that they 
would have to bear would be greater than the value of what they 
were receiving.
    So I think this issue is going to be an issue that will be 
with us for a number of years. Because the users are going to 
get stuck with a very high bill. They would rather see, and are 
asking for your consideration, for the money to be appropriated 
and not reimbursed.
    How am I doing on time?
    Thank you, Mr. Chairman.

                               TRES RIOS

    You are involved in a project at the Tres Rios with the 
Engineers Corps. You are undertaking a program that is taking 
effluent waters that are contaminated and, by using different 
recharging methods, recharging the aquifers and also producing 
clean water. It is a project that you have been involved in for 
a number of years and I think you have found it successful.
    As I hear you this morning, the Secretary and yourself in 
your testimony, it seems that this initiative that you are 
implementing is to ensure that there are different ways of 
producing clean water.
    One of the problems I think we are facing with this 
particular project--it is a demonstration project that is a 
successful project--is that OMB, for whatever reason, has not 
seen value in it. The question to you from me would be, the 
initiative is to find new ways of cleaning up water and a 
project that you are undergoing as a demonstration project, 
is--doing this, but it may not have the same priority with OMB. 
I do not want to get you in trouble with anybody, but I had to 
make that comment.
    Secretary Norton. I have to say I am not familiar with the 
Tres Rios project specifically.
    Mr. Pastor. Let me invite you to come to Arizona.
    Secretary Norton. We have quite a travel schedule here.
    I do think we need to be creative; and as we look at the 
long-term, dramatically increasing needs for the West, I think 
that the population growth for Arizona in the last census time 
period was about 40 percent. It is huge. We need to be finding 
new ways to deal with those issues. So I think that groundwater 
aquifer recharge is one of the types of things we will have to 
look at. Without commenting on a specific project, I think we 
do need to look at more of those things.
    Mr. Pastor. Many of these waters are contaminated by 
agricultural use. And you take that and effluent, and then find 
ways to clean it up. The problem we are facing and we are going 
to face in the Western States is the Colorado River, most of us 
rely on the Colorado River for water. But I was told that OMB 
was not looking at this project with some priority. But yet I 
hear--and I commend you for it, and I tell you that I think you 
are going the right way, you are finding a source of water by 
reclaiming water so that we are not reliant just on our 
groundwater, but sources that we have used and could--possibly 
could recycle.
    Mr. Hobson. Mr. Latham.

                      Mr. Latham's Opening Remarks

    Mr. Latham. Thank you, Mr. Chairman; and welcome both of 
you here. I just have a couple of brief questions.

                  LEWIS AND CLARK RURAL WATER PROJECT

    One, as far as the Lewis and Clark rural water project and 
your involvement there, how are we doing?
    Mr. Keys. Mr. Chairman, Mr. Latham, it is coming along. It 
is one of those that we took a hard look at on funding for this 
year.
    Mr. Latham. Okay.
    Mr. Hobson. What does that mean?
    Mr. Latham. What does that mean? Good question, Mr. 
Chairman. I have to chair another subcommittee in about 3 
minutes here.

    Secretary Norton. I think, if I can comment generally, that 
was one of our rural water projects; and that funding has been 
cut, based in part, on the assessment of effectiveness by OMB.
    If I could just point out, one of the comparisons was with 
the EPA and the USDA programs that also provide rural water. 
For the Bureau of Reclamation program, we served about 360 
people per million dollars of Federal funding, with the USDA 
program, it was closer to 1,800 people; EPA, over 1,600. That 
was one of the questions that was raised, was whether we were 
really effective in the way we were going about those things. 
Because our funding figures looked different than other very 
similar programs. It is one of the reasons that we want to go 
back and look more comprehensively at this program overall to 
see if there are some things that we could do to be more cost-
effective.
    Mr. Latham. Okay. It obviously is a major issue up in 
northwest Iowa, South Dakota and Minnesota; and we want to 
continue to work with you on it.

                   MISSOURI RIVER ENDANGERED SPECIES

    I have a kind of hypothetical question. Part of it is real 
in that there is a tremendous shortage of water and the 
reservoirs are down in South Dakota, on the Missouri River. It 
has been expressed to me that there is a possibility, because 
of the low levels, that this spring we may have the least tern 
or plover start nesting at lower level on the banks. What 
happens then? They are an endangered species. Do the reservoirs 
get filled? Do we artificially open up the gates to keep the 
levels down?
    Secretary Norton. We have been working very closely with 
the Corps of Engineers, since that is the primary emphasis on 
the Missouri River areas, on the biological opinions and the 
annual operating plan for the overall Missouri River. That is 
one of our significant concerns, and that is something that 
Assistant Secretary Craig Manson, who oversees the Fish and 
Wildlife Service, is very personally involved in and is 
spending a lot of time analyzing.
    Mr. Keys. Mr. Chairman, Mr. Latham, I might add, last year 
in the Platte River Basin we had that very problem, where one 
of our reservoirs was drawn down, the plover nested on the dam, 
and it was time for the water to come up. We worked closely 
with the Fish and Wildlife Service, and there were emergency 
measures to relocate some of the nests to make it possible to 
raise the reservoirs.
    Mr. Latham. Do you anticipate--my time must be up, Mr. 
Chairman; the buzzer went off--any litigation or anything in 
that regard this time?
    Mr. Keys. We work very closely with the Fish and Wildlife 
Service, and there was none at that time. There is a tremendous 
cooperative effort under way in the Platte River Basin to solve 
the four endangered species problems there, and this is one of 
the things that was addressed by that cooperative committee, 
which is made up of all the Federal agencies and all of the 
States and so forth. We have heard no rumblings of litigation 
from that.
    Mr. Latham. There has not always been agreement as far as 
utilization on the Missouri River between South Dakota and Iowa 
and the down river states. There are some people who may look at 
that as an opportunity.
    Thank you, Mr. Chairman.
    Mr. Hobson. Mr. Doolittle.

                    Mr. Doolittle's Opening Remarks

    Mr. Doolittle. Thank you, Mr. Chairman.

                          CENTRAL UTAH PROJECT

    Mr. Keys, Madam Secretary, an annual battle continues with 
the Western Area Power Administration, which has the 
responsibility, on behalf of public power, to contribute $6 
million into a special account for mitigation and water 
conservation. WAPA's contribution is in addition to money put 
in by the State of Utah, Interior and the local district. In 
the fiscal year 2004 budget request, WAPA is trying to do 
something creative. They have shifted their funding 
responsibility over to the Bureau of Reclamation's budget. The 
fiscal year 2004 budget request for the Western Area Power 
Administration reflects this.
    I guess I would just like to know, do you support ending 
WAPA's responsibilities to contribute into this account and 
transferring this funding obligation to the Bureau of 
Reclamation? And, if so, why have you not built this 
contribution into your fiscal year 2004 budget request?
    Mr. Keys. Mr. Chairman, Mr. Doolittle, we do not support 
that. This proposal caught us completely by surprise earlier 
this week, and we are in negotiations with the Department of 
Energy to rectify the situation. We do not support that.
    Mr. Doolittle. Thank you.

                               TITLE XVI

    The fiscal year 2004 budget request for Title 16 water 
reclamation and reuse is $12.68 million, significantly less 
than the $33.3 million Congress provided in fiscal year 2003. 
Reclamation is proposing to use the fiscal year 2004 funds for 
completion of projects already under construction. But the 2004 
funding request concerns me. Water reclamation, water recycling 
and water reuse technology should be receiving greater emphasis 
in meeting growing and changing demands for water. Your budget 
justifications state that funding under this program is being 
reduced because it is not one of your core missions. The 
assessment of this program in the budget states that it helps 
expand water supplies in areas that routinely face severe water 
shortages.
    California is continually faced with lack of supplies, and 
desalination is a great way to provide additional water to my 
State. Can you explain for me why you are proposing to scale 
back the program when it seems to hold such great promise; and 
have you ever proposed a comprehensive plan for water 
desalination in Southern California; and, if not, why not?
    Mr. Keys. Mr. Chairman, Mr. Doolittle, the Bureau of 
Reclamation will continue to work with you and all of our 
constituents to construct the wastewater reuse and recycling 
projects that you authorize and fund and to complete those that 
are under construction.

 Our fiscal year 2004 budget for Reclamation and most of 
Interior is flat, but it does actually increase the Title 16 
request from 2003 to 2004 from about 11.5 to 12.5 million 
dollars. Title 16 is a valid part of our program.
    Mr. Doolittle. Can I interrupt you? Now, I thought it was 
being reduced. You just told me it is being increased.
    Mr. Keys. Sir, the request that was made--the official 
request in 2003 was for $11.55 million. Our request for 2004 is 
$12.68.
    Mr. Doolittle. Okay. This is your internal request to bump 
this up, but, in fact, $12.68 million would be a dramatic 
reduction over what was approved by the Congress; right?
    Mr. Keys. What we are requesting for 2004 is less than was 
enacted for 2003.
    Mr. Doolittle. Right. I am not being argumentative with 
you, but I read in your statements--you talk about innovation, 
how to prevent crisis-level conflicts, the four Cs and all of 
that. I do not see anywhere in either one of your statements a 
proposal for enlarging or building new dams--which I am very 
disappointed about, by the way. That is my way of providing 
water, and I do not see that in here.
    One other way we can provide and in effect increase yield, 
which is really what the bottom line is, does come a great deal 
through this Title 16 program--and here I would just encourage 
you to step up to the plate. I mean, you know, either give us 
some new dam proposals--and I have got several you should 
consider--or at least, in the meantime, give us something we 
know that works, which is this Title 16 program. And beef it 
up. I mean, we have got to have some leadership from the 
administration in these key areas.
    So if we are not going to do Title 16, I want to see your 
budget submission for the Auburn Dam--which I would prefer to 
Title 16, by the way.
    What is your reaction, what do you think? This does not 
seem to be getting the attention it deserves, does it?
    Secretary Norton. One of the things that we are trying to 
look at is how we can resolve some of these issues from a 
Westwide approach, taking a step back to look at what we ought 
to be doing programmatically and systemwide to address some of 
these kinds of issues; whether that is increasing the 
development of technology that would bring down the cost of 
some of these types of programs, or whether we can enhance our 
institutional structures to meet these needs in other ways. 
Some of what you will see in our budget is taking a step back 
from specific projects to look across the whole area of our 
responsibilities and decide where we ought to go from here for 
the long-term.
    Mr. Doolittle. So you might conclude a year from now that 
this is something that you are really going to beef up?
    Secretary Norton. We are going to be looking across the 
board at the types of things that would be most effective.
    Mr. Doolittle. Well, good. I will look forward to the 
Auburn Dam proposal as well.
    Let me ask you this, if I have time, Mr. Chairman.

                         SUMNER PECK SETTLEMENT

    Sumner Peck--I note that yesterday the Department of 
Justice has determined that the first installment of the Sumner 
Peck settlement, $35 million plus an initial $5 million 
payment, will be made from the Judgment Fund, which is where I 
always thought it should have come from.
    I also understand that the Department of Justice is still 
determining policy for the remainder of the settlement.
    So here is my question: What is the current status of the 
fiscal year 2003 payments?
    Secretary Norton. The Department of Justice's ruling means 
that those will be made from the Judgment Fund.
    Mr. Doolittle. So we could expect that forthwith, you 
think?
    Secretary Norton. Yes.
    Mr. Doolittle. Secondly, is the Department of Justice 
considering the use of the Judgment Fund for the remaining 
payments?
    Secretary Norton. That is under consideration. Let me ask 
John Trezise to comment on this.
    Mr. Trezise. Mr. Doolittle, as the Secretary said, the 
Department of Justice is looking at that issue. As you know, 
the omnibus bill included language concerning payment of the 
Sumner Peck settlement from the Bureau of Reclamation 
appropriation. And Justice has looked at that language with 
respect to this year's payments. They are still looking at the 
question of how that language will affect payments for 2004 and 
2005.
    Mr. Doolittle. I hope we are not going to have to go 
through all of this all over again with DOJ trying to raid all 
the reclamation projects in California to pay for this.
    Who controls the Judgment Fund and how does that work?
    Mr. Trezise. It is controlled by the Department of Justice.
    Mr. Doolittle. Totally by DOJ? Does any other agency have 
input into that?
    Mr. Trezise. The General Accounting Office has some 
technical role in the Judgment Fund, but the legal 
interpretation of when the Judgment Fund is available is a 
Department of Justice function.
    Mr. Doolittle. Does the Department of the Treasury have a 
say in what happens with the Judgment Fund?
    Mr. Trezise. Other than making payments authorized by the 
Department of Justice, no.
    Mr. Hobson. What I would like to do--your time is up, John. 
I would like to go to Mr. Peterson, give him 5 minutes. Then we 
are going to go vote; and I think, unless somebody has some 
heavy questioning, we will let this go.
    I would like to make sure that every member puts in any 
questions they may have for the record today. We hope you will 
respond within 2 weeks, and I would be interested in the one to 
Mr. Visclosky cleared up.
    So, Mr. Peterson, we will go to you for your 5 minutes.
    If members want to go vote, they can. This will be the end 
of the hearing.

                     Mr. Peterson's Opening Remarks

    Mr. Peterson. Thank you, Mr. Chairman. I will be quick.
    I am not sure this is an appropriate question here, but it 
is an issue I think we should be able to get an answer to. I am 
new on this committee, and I am not sure of all the 
jurisdictions and everything that we cover. I haven't absorbed 
all of that. Where are we on relicensing of hydropower in this 
country?
    Secretary Norton. I can say, generally, the Department of 
the Interior has been working out its procedures for our Fish 
and Wildlife comments, and input on that relicensing procedure. 
Working out what that process is going to be is still under 
way.
    Mr. Keys. Mr. Chairman, Mr. Peterson, the Reclamation 
facilities are not subject to relicensing by FERC. We 
understand that FERC has a schedule and that, for the most 
part, they are on schedule for relicensing all of the power 
facilities all over the United States that are subject to their 
jurisdiction.
    Mr. Peterson. But we are going to get to the finish line? 
We are not going to shut down hydropower?
    Mr. Keys. We cannot speak for the Energy Department or 
those people.
    Mr. Peterson. That is totally the Energy Department?
    Mr. Keys. They are responsible for it.
    What the Secretary was talking about is the pieces of those 
relicensing that Interior people work with them on.
    Mr. Peterson. Okay. And you get the reaction through Fish 
and Wildlife which can cause a delay?
    Secretary Norton. Basically, the Fish and Wildlife Service 
imposes the fish-related conditions on the relicensing. So this 
is a re-examination of exactly how we go about developing our 
conditions, that we would apply. This is how that ties into the 
FERC process.
    Mr. Peterson. Do we have a list of dams and plants that 
hydro could be added to? Is there any list of potentials for 
hydro?
    Mr. Keys. Mr. Chairman, Mr. Peterson, all over the United 
States--I don't know of a list. In Reclamation, we keep up with 
those. FERC does have some jurisdiction when there is not a 
Federal power authorization there; and any entity that is 
interested in doing that, we work with them. So we have such a 
list for Reclamation, but I don't know of any such for all of 
the other facilities.
    Secretary Norton. And, Mr. Peterson, if I could add, we are 
enhancing our hydropower generation at our existing facilities. 
We have been going through and redoing our turbines and looking 
at the various ways that we can enhance that production.
    Mr. Peterson. To increase?
    Secretary Norton. Yes.
    Mr. Peterson. But we do not have a list of where we would 
like to add some?
    Secretary Norton. Not for ones that currently have no 
hydropower generation.
    Mr. Peterson. But there are a lot of dams that could be 
producing hydro but are not? Am I wrong there?
    Secretary Norton. I would have to defer to John, because I 
am not sure what qualifies a dam as a potential hydro dam.

    Mr. Keys. There was a wave of that activity a few years 
ago, and economic studies were done all over the place. I would 
guess that most of the viable ones are taken. There may be some 
now at the higher energy costs that may become viable, but I do 
not have such a report.
    Mr. Peterson. Could you refer me to such a report that I 
could look at?
    Mr. Keys. We will try to find something on that for you.
    Mr. Peterson. Thank you.
    Mr. Hobson. Mr. Visclosky has a 30-second question. Then I 
think what we are going to have to go vote.
    Mr. Doolittle wanted to talk to you, but there are three 
votes. He will not be able to get back. I think he thought 
there was only one. I would like you to talk--he has got three 
more questions that he would like to ask you all. You need to 
figure out how to do that on the phone or something, because he 
isn't going to get back.
    Secretary Norton. We will be happy to work with you on 
that.

                                 CALFED

    Mr. Visclosky. I want to thank the Park Service people who 
have been working with us. But on CALFED--and I am supportive 
of the idea of people getting together and reaching agreement--
absent authorization, at some point in time, how long can we 
continue to pick programs, if you would, as far as 
appropriations that fit the concept and existing authorization, 
before we simply have to say this theory did not work out?
    Secretary Norton. It is my understanding that in the 2003 
omnibus there was some limited authorization language. We are 
continuing to work with the State of California and the 
California delegation on a more permanent statutory 
authorization.
    Mr. Visclosky. Thank you very much. Because I just think at 
some point if people would make decisions everybody would be 
better off.
    Mr. Hobson. I am going to let you go. We have to go vote.
    Mr. Doolittle is not going to get back, but he has two or 
three questions that he will submit for the record or talk to 
you about. I don't know if it is money for the Auburn Dam or 
what.
    Thank you for coming. Appreciate it. Sorry we have to run.
    [Questions for the record follow:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Mr. Hobson. At this point, we will place the budget 
justifications for the Appalachian Regional Commission in the 
record.
    [The information follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
